                                           NATIONAL SCIENCE FOUNDATION
                                           OFFICE OF INSPECTOR GENERAL
                                             OFFICE OF INVESTIGATIONS

                                     CLOSEOUT MEMORANDUM

Case Number: Al3060071                                                           Page 1 ofl


         OIG received an allegation that the subject! (the author of a paper) is part of a
         conspiracy to willfully suppress another researcher's 2 theory. Having become aware
         of the researcher's theory, the subject wrote a review ofit, identifying strengths and
         weaknesses, and criticizing the researcher's approach to science. Later the subject
         became convinced the researcher's theory was not viable. Subsequently, the subject
         published a paper3 that did not mention or reference the researcher's theory. The
         gist of the allegation is that because the subject was aware of the researcher's
         theory, the subject was obligated to reference it in his paper, and the subject's
         failure to do so constitutes omission and suppression of results, which would
         allegedly constitute research misconduct under NSF's regulation. Other allegations
         were also made against the subject, as well as against the journal that published
         the subject's paper, but those complaints have no NSF nexus; hence, we have no
         jurisdiction.
         The subject is not obligated to discuss or reference others' theories in his papers,
         particularly if the subject has concluded such a theory is not viable. The researcher
         is free to discuss his theory in his own papers if he wishes it to be part of the
         scientific record. OIG concludes the researcher and subject have a difference of
         opinion about the viability of the researcher's theory, and the subject's failure to
         include in his paper a theory he considers non-viable is not research misconduct.
         Accordingly, this case is closed with no further action taken.




              1
              2
              3




NSF OIG Form 2 (11/02)
